OFFICE OF INSPECTOR GENERAL
                  Audit Report

  Review of the Railroad Retirement Board’s
    Security Patch Management Process


     This abstract summarizes the results of the subject audit. The
     full report includes information protected from disclosure and
     has been designated for limited distribution pursuant to
     5 U.S.C. § 552




                     Report No. 11-08
                       July 7, 2011




 RAILROAD RETIREMENT BOARD
                              REPORT ABSTRACT
 Review of the Railroad Retirement Board’s Security Patch Management Process


The Office of Inspector General of the Railroad Retirement Board (RRB) conducted an
audit to determine whether the RRB’s patch management policies, procedures and
practices are in compliance with the Federal Information Security Management Act of
2002 (FISMA) requirements and if the security controls over patch management are in
place and operating as intended.

FISMA requires agencies to establish and maintain a security management program
that includes timely and secure installation of software patches. Patch management is
a security practice designed to prevent the exploitation of information technology (IT)
vulnerabilities that exist within an organization. Patches are additional pieces of code
developed to address security flaws and problems in software. Timely installation of
security patches is generally recognized as critical to maintaining the operational
availability, confidentiality, and integrity of IT systems.

In a separately issued Restricted Distribution report, we communicated that the RRB’s
security patch management policies, procedures and practices comply with FISMA
requirements. However, while security controls over patch management are in place,
they are not fully effective or operating as intended. We made 13 detailed
recommendations to RRB management for improvement in:

      procedures for the remediation of identified vulnerabilities;
      standards for timely resolution of remediation requests;
      vulnerability scanning procedures for PCs and servers;
      third-party software security updates;
      monthly server patching process;
      security patch management process performance reports;
      notification of mainframe computer updates; and
      information security policies and procedures.

Agency Management has agreed to take corrective actions for all recommendations.
